July 25, 2012

MEMORANDUM FOR: PATRICK R. DONAHOE
                POSTMASTER GENERAL




FROM:                      for David C. Williams
                               Inspector General

SUBJECT:                        Review of Fiscal Years 2012 and 2013 Liquidity
                                (Report Number FI-WP-12-001)

This memorandum provides the U.S. Postal Service Office of Inspector General’s
(OIG) review of U.S. Postal Service liquidity projections as of June 2012 (Project
Number 12BD016FI000). Without legislation to eliminate or defer prefunding
payments into the Retiree Health Benefits Fund, the U.S. Postal Service will
likely default on the $11.1 billion in payments due in fiscal year (FY) 20121 and
the $5.6 billion payment due in FY 2013. In addition to these defaults, the
Postal Service projects an estimated $100 million cash shortfall on
October 15, 2012, with a slow increase in liquidity from October through
December 2012. Liquidity risks and shortfalls are projected to return in spring
2013 through October 2013, with the Postal Service projecting an estimated
$1.2 billion cash shortfall in mid-October 2013.

These liquidity concerns exist even with the expected Postal Service default on
the Retiree Health Benefits prefunding payments. To preserve its liquidity, the
Postal Service presented the following additional measures for consideration:
withhold employer contributions to the overfunded Federal Employees
Retirement System (FERS) pension fund, and consider three different options for
reimbursement of the U.S. Department of Labor (DOL) workers’ compensation
claims and administration costs.

As a result of our review, we believe the projected cash flow and liquidity figures,
based on projected revenues and expenses, appear reasonable. Based on that

1
  The Postal Service is required to make prefunding payments of $5.5 billion in August 2012 and $5.6 billion
in September 2012.
                                         2

analysis, we concur with the Postal Service’s projections that it might not have
sufficient cash to fund its operations in October 2012 and at other times during
FY 2013. However, it should be noted that the key components of projected cash
flows, revenues, and expenses can be significantly impacted by the external
economic environment, such as unanticipated changes in the Consumer Price
Index, the cost of fuel, and consumer demand. Additionally, revenues and
expenses can also be impacted by the global political and financial
environments. All these factors could significantly change the future actual
results for the projections presented.

For example, the cash flow projections include an estimated increase in revenue
of $300 million for the 2012 presidential election. This increased revenue is
expected near October 15, 2012—the projected low point of cash. If the revenue
amount is not realized, there could be an increase in the projected cash shortfall.

In addition, we noted the following regarding areas the Postal Service is
considering for preserving cash in order to continue delivering mail:

   The Postal Service is unable to make required payments to the Retiree
    Health Benefits Fund and is considering suspending payments to the FERS
    pension fund. Although the FERS pension fund payments are legally
    required, the U.S. Department of Justice has determined that suspending the
    FERS payments would have no impact on Postal Service employees. The
    Postal Service has overfunded FERS by $11.4 billion, and it has funded its
    health benefit fund at a level much greater than the private sector and federal
    government.

   The Postal Service described three potential options for reimbursing the DOL
    for workers’ compensation expenses. The Postal Service is legally required to
    make an annual lump sum payment due in mid-October 2012 (and 2013). Not
    paying the amount due or paying installments for several months would assist
    the Postal Service in retaining cash for operational needs; however, this
    method could potentially put the DOL in a position in which it could not fulfill
    its operational needs. We suggest the Postal Service work closely with the
    DOL to identify a mutual solution.

To support our conclusions in this statement, we reviewed the liquidity
documentation provided to us on June 11, 2012, and considered the following:

   Prior period audited annual financial statements and reviewed quarterly
    reports issued by the Postal Service.

   Discussions held with Postal Service management to describe the forecasting
    process and to identify key areas of risk for the development of the forecast
    data.
                                                   3

   Support for various critical economic assumptions from third party consulting
    firms by published government sources.

   Monetary impact of all audit reports issued. Similar information has been
    presented to Postal Service executives.

We also conducted various procedures to verify the reasonableness of the
reported information. Those procedures included, but were not limited to,
documentation of the overall process, interviews with key personnel responsible
for developing the documentation and included data, verification of selected
critical components2 of the forecasting model,3 and review of the legal impact of
the various liquidity preservation methods identified in the documentation. We did
not apply any specific test procedures to the applications used to generate the
data in the documentation and did not test the overall reliability of the systems
used to generate the data. We reviewed the documentation as it relates to the
baseline forecasting of liquidity through October 15, 2013, the potential cost
savings of the liquidity preservation measures presented, and the potential legal
impact of some of the measures presented.

Further, we reviewed prior OIG audit reports to identify additional areas where
the Postal Service could preserve cash. The Postal Service should consider
these cost-reduction initiatives, as they might provide additional liquidity between
now and October 15, 2013. These ideas do not require legislative action to
implement but might require some initial investment. See Appendix A for a list of
those reports.

Management’s Comments

Although we made no recommendations in our report, management agreed with
our conclusion that its cash flow and liquidity projections were reasonable.
Management noted that the potential negative liquidity does not include pending
defaults on $16.7 billion of retiree health benefits prepayments in late FY 2012
and FY 2013 that are required under the Postal Accountability and Enhancement
Act. In addition, management agreed that their actual financial results may vary
from the forecast and said they will closely monitor the liquidity and overall
financial position while preserving cash and mitigating the risk of a cash shortfall.
Management also noted the Postal Service Board of Governors has not decided
whether to take any extraordinary cash preservation methods, but they are
monitoring the situation. As a result, no decisions have been made at this time to
withhold employer contributions to the FERS or modify workers’ compensation
payments to the DOL.


2
 Evaluated selected components based on subjectivity and risk.
3
 The forecasting model is used to estimate future period revenues and expenses used to generate
estimated future cash flows.
                                       4

Management noted that Appendix A makes reference to a number of prior OIG
reports identifying cost savings and reemphasized that many of the
recommendations in the reports would require significant up-front costs to
implement, have the potential for stakeholder resistance, or carry significant
implementation challenges. Management added it is actively pursuing the cost-
saving measures outlined in its Five-Year Plan.

See Appendix B for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the statements and
conclusion in the report. We acknowledge management concerns related to the
audit projects noted in Appendix A and addressed them in the appendix.

Thank you for the opportunity to provide this information. If you have any
questions or need additional information, please contact Mark Duda, assistant
inspector general for audit, or me at (703) 248-2100.

cc: Joseph Corbett
    Stephen J. Masse
    Corporate Audit and Response Management
                                                     5

                                   Appendix A: Prior OIG Reports

          Following is a list of recent OIG reports that identified potential cost savings.
          Immediate implementation of some or all of the recommendations in the
          reports could provide additional liquidity between now and October 15, 2013.
          None of these recommendations require congressional action to implement.

                                                                                Potential Annualized
                                                                                     Savings for
                                                                                  Fiscal Year 2013
                                                                                                 4
    No.      OIG Audit Topic         Audit Report           Report Date             (in millions)
     1      Modes of Delivery5      DR-AR-11-006             7/7/2011                             $5,000

    2       Benchmarking Mail       EN-MA-11-001             3/25/2011                                $518
            Distribution to
            Carriers
    3       Retail, Network, and    MS-AR-10-004             7/28/2010                                $771
            Administrative          FF-AR-10-224(R)          9/20/2010
            Optimization            NO-AR-11-004            12/14/2010
                                    EN-AR-11-004             3/31/2011
                                    FF-AR-11-009             6/14/2011
                                    NL-AR-12-006             5/29/2012
    4       Processing and          DR-AR-11-001            11/22/2010                                $154
            Distribution Center     DR-AR-11-003             1/20/2011
            and Delivery            DR-AR-12-001              6/5/2012
            Efficiency Reviews      NO-AR-12-005              6/5/2012
                                    DR-AR-12-002             6/19/2012
    5       Postal Vehicle          NL-AR-11-001             1/13/2011                                 $73
            Service Audits          NL-AR-11-002             3/18/2011
                                    NL-AR-11-004             7/25/2011
                                    NL-AR-12-001              2/2/2012
                                    NL-AR-12-005             4/25/2012
    6       Density of First        NL-AR-12-003             3/12/2012                                     $2
            Class Mail on Air
            Transportation




4
  Some of these savings would require some period of time to implement before the savings could be
realized and could involve some initial investment cost. Management did not concur with all
recommendations and associated monetary impacts of the listed reports.
5
  Savings are associated with converting existing door-to-door to more economical and efficient delivery
modes, such as curbside delivery.
                6

Appendix B: Management’s Comments
